                           Office of the Inspector General
                   Corporation for National and Community Service




                                     Audit of the
                   Corporation for National and Community Service's
                        Fiscal Year 1999 Financial Statements

                                    Report Number 00-01
                                       March 3,2000




                                             Prepared by:
                                              KPMG LLP
                                          2001 M Street, N.W.
                                         Washington, D.C. 20036

                           Under Corporation for National and Community Service
                                          Contract # 98-743-3002
                                               Task Order #7




This report was issued to Corporation management on March 31,2000. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions
on the report's findings and recommendations no later than September 27,2000 and complete
its corrective actions by March 31, 2001. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                                                                                         CORPORATION

                                                                                                         FOR NATIONAL

                                Office of the Inspector General                                          QSEKVIC
                      Corporation for National and Community Service
               Audit of the Corporation for National and Community Service's
                            Fiscal Year 1999 Financial Statements


Introduction

As required by the Government Corporation Control Act (31 U.S.C. 9101 et seq.), the Office of
the Inspector General engaged KPMG LLP to audit the fiscal year 1999 financial statements of the
Corporation for National and Community Service. The audit, conducted in accordance with
government auditing standards, included extensive audit procedures to overcome known material
weaknesses and included tests of all three financial statements. As a result, KPMG was able to
issue an unqualified opinion on the Corporation's Statement ofFinancia1 Position at September 30,
 1999. However, as explained in the Auditors' Report on the Financial Statements, KPMG was
unable to render an opinion on the Statement of Operations and Changes in Net Position, and the
Statement of Cash Flows for the fiscal year.

As discussed in the Report on Internal Control Over Financial Reporting and illustrated in Exhibit
I, material weaknesses have been reduced from eight in FY 1998 to five; two of the eight are now
classified as reportable conditions; and one has been corrected to the extent that we will provide
recommendations for further improvementin our final report on this audit, the "management letter"
(OIG Report 00-38'). These improvements, and the Corporation's new accounting system
implemented during the final months of FY 1999, indicate that the Corporation continues to make
progress toward producing auditable financial reports.

However, the Corporation has yet to fully correct all of its financial management deficiencies. The
five areas cited as material weaknesses in fiscal year 1999 were first reported as material
weaknesses in 1996. They include: financial management and reporting, the Corporation's general
control en~ironment,~grants management, net position reporting, and fund balance with Treasury.



' OIG Audit Report 00-38: "Recommended Improvements to the Corporation's Internal Controls - Fiscal Year 1999
Financial Audit Management Letter" is currently being prepared by KPMG and is expected to be issued within the
third quarter of FY 2000.
2
 Control environment factors include commitment to competence, management philosophy and operating style,
organizational structure, and assignment of authority and responsibility. The control environment sets the tone of an
organization, influences the level of control consciousness, and provides the discipline and structure of an
organization.




                                                                                                    Inspector General
                                                                                                    1201 New York Avenue, NW
                                                                                                    Washington, DC 20.525
The integrity of data in the National Service Trust and matters related to the Corporation's new
accounting system's controls and reports are cited as reportable conditions.

The Report on Compliance with Laws and Regulations also repeats two areas of non-compliance
with laws and regulations: the Corporation's substantial non-compliance with Federal financial
systems requirements during the majority of fiscal year 1999, and the Corporation's practice to
carry over grant funds when renewing grants that is not always in compliance with appropriation
laws related to the use of National and Community Service Act funds.3

As is our responsibility under the Government Corporation Control Act, CNS OIG participated in
the planning of the auditors' work and evaluated the nature, timing and extent of the procedures
performed, monitored progress throughout the audit, and reviewed the auditors' report and the
work papers supporting its conclusions, with which we concur.

The Corporation 's response to our audit report

We provided the Corporation management with a copy of the report for review and comment. In
the Corporation's response, the Chief Executive Officer disagrees with nearly all of the audit
findings including the auditors' opinion. In disagreeing with the auditors' opinion, management
incorrectly uses GAO's guidance for establishing initial estimates ofplanning materiality to justify
its argument that its statements of operations and changes in net position and cash flows should not
receive a disclaimer of opinion, despite a $10.5 million unidentified difference that impacts these
statements.

As the report states, management is responsible for preparing the financial statements. It is the
auditors' responsibility to express an opinion on the statements based on the audit. The auditors'
opinion is a matter of professional judgement and objectively considers all aspects of the work
performed. The auditors test and consider the amounts and disclosures in the financial statements
and the overall financial statement presentation. Materiality considerations are not simply
quantitative matters, they include the qualitative aspects of the financial statements and are based
on the auditors' independent and professionaljudgement. KPMG performed the audit, evaluated
the results, and concluded that the conversion of data to a new accounting system and the lack of
an audit trail to explain adjustments to certain accounting balances made it impossible to obtain
satisfactory evidence to support the $10.5 million reported as an increase in unexpended
 appropriation^.^ That is the basis for their disclaiming an opinion. CNS OIG agrees with KPMG's
decision.



  This condition is also discussed in Section E of the Report on Internal Control over Financial Reporting.

  As reported in the Independent Auditors' Report, page 1.
The Chief Executive Officer's response also asserts the auditors' report has "an unwarrantedly
negative cast" and cites a list of the Corporation's accomplishments over the past 18 months. We
agree that the Corporation has made progress. However, many of these achievements occurred in
recent months - after the close of fiscal year 1999, the period covered by the audit. Our report
acknowledges the Corporation's new financial accounting system, recognizes the arduous efforts
that were necessary to convert from the Corporation's legacy systems to the new system, and
mentions that the Corporation has a new Chief Financial Officer and other financial management
personnel. Equally important, the report clearly states that during FY 1999, the Corporation
reduced the number of accounting and financial reporting material weaknesses from eight to five.

Finally, the CEO's letter describes the communication of audit information during the audit process
as "too limited," ignoring the fact that the Corporation's Chief Executive Officer, Chief Operating
Officer, and Chief Financial Officer receive monthly OIG audit management reports which provide
information on the status of all of OIG's ongoing audit work, including the financial statement
audit. Furthermore, the financial statement audit was a primary topic at CEO briefings on
December 21" ,January 27th,and February 1 7 ~In     . those discussions, OIG reported that progress
on the audit was delayed by the Corporation's failure to provide the statement of cash flows and
other information critical to the auditors' work. OIG clearly stated the delay in receiving
information was compressing audit field work into a five to six week period - mainly during the
month of February.

On February lSt,KPMG informed the CFO of problems with the statement of cash flows. In
addition, during the field work, KPMG discussed issues with the Corporation's accounting staff
as they arose. A preliminary summary of significant issues was provided to the Deputy CFO on
February 1gthafter a meeting held on February 16th. However, as the Inspector General informed
management in the January and February briefings, due to the compressed audit schedule, formal
written findings were not available until the end of field work, March 3rd.

On March 2nd,within hours of the auditors' formulating, and reporting to OIG, their conclusions
as to the opinion on the financial statements, the IG reported the outcome to the CEO. Within 24
hours of the auditors' conclusions (on March 3rd),OIG and KPMG met with the COO, the CFO,
the Deputy CFO, and the Corporation's Chief of Staff to discuss, and provide further information
on, the outcome of the audit, including the opinion on the financial statements and a summary of
the material weaknesses and compliance issues. As quickly as possible thereafter, OIG and KPMG
provided the individual formal written findings supporting the auditors' overall findings and
conclusions. On March 1 6 ~ and, again on March 29th,we met with the COO, CFO and Deputy
CFO to discuss the audit results, the draft audit report, and the Corporation's response.

Despite the Corporation's disappointment and disagreement with the outcome of its FY 1999
financial statement audit, it is important to keep in mind that the Corporation has had much to
achieve. Over the past several years, OIG's audit reports have classified numerous deficiencies
into broad areas of material weaknesses that encompassed the most critical aspects of the
Corporation's financial management. Given the pervasiveness of the deficiencies, it is not
surprising that, although the Corporation has made some progress, we are reporting that not all of
the material weaknesses were corrected during FY 1999. The Corporation has also reported that
it has yet to fully achieve its major financial management improvement goals in its monthly report
to Congress as recently as March 21, 2000.5

At any rate, the purpose of this report is to convey the results of the work performed to audit the
Corporation's FY 1999 financial statements. Where the audit procedures revealed evidence of
continuing or new deficiencies, the auditors, in accordance with government auditing standards,
have reported the deficiencies and made recommendations for corrective actions and further
improvements. Future audits will reveal the effectiveness of the achievements made in recent
months and the effectiveness of the corrective actions put into place to respond to our findings and
recommendations, as well as the Corporation's continued progress.




 As reported in OIG Audit Report 00-13: "Review of the Corporation for National and Community Service Action
Plan."
                            Office of the Inspector General
                   Corporation for National and Community Service
            Audit of the Corporation for National and Community Service's
                         Fiscal Year 1999 Financial Statements

                                     Table of Contents



                                                                                 Page

Independent Auditors' Report
Report on the Financial Statements
Report on Internal Control Over Financial Reporting
      A. Financial Management and Reporting
      B. General Control Environment
      C. Grants Management
      D. Fund Balance with Treasury
      E. Net Position
       F. National Service Trust
       G. Financial Systems
Report on Compliance with Laws and Regulations


Corporation for National and Community Service
   Financial Statements

   Statement of Financial Position
    Statement of Operations and Changes in Net Position
    Statement of Cash Flows
    Notes to Financial Statements
Corporation Response                                                        Appendix A
                2001 M Street, N.W.
                Washington, DC 20036




                                       Independent Auditors' Report


Inspector General
Corporation for National and Community Service:


We have audited the accompanying fiscal year 1999 financial statements of the Corporation for National and
Community Service. Our report expresses an unqualified opinion on the Corporation's Statement of
Financial Position as of September 30, 1999, and a disclaimer of opinion on the related Statements of
Operations and Changes in Net Position and Cash Flows for the year then ended.

In connection with our audit, we considered the Corporation's internal control over financial reporting and
tested the Corporation's compliance with certain provisions of applicable laws and regulations that could
have a direct and material effect on its fiscal year 1999 financial statements.

As a result of our consideration of internal control over financial reporting, we identified the following
conditions that we consider to be material weaknesses:

    Financial Management and Reporting - The Corporation's policies and procedures in place during
    fiscal year 1999 were not effective in ensuring quality control of accounting and financial reporting
    activities. Additionally, the general ledger system in use for the majority of fiscal year 1999 was not
    adequate to support the financial information needs of the Corporation, or to facilitate the preparation of
    annual financial statements.

    General Control Environment - A comprehensive process for assessing the effectiveness of the
    Corporation's system of internal control for safeguarding assets, producing reliable financial reports, and
    complying with applicable laws and regulations, is not in place. Additionally, a comprehensive set of
    policies and procedures to guide Corporation financial management activities does not exist.

    Grants Management - Adequate procedures for monitoring grantees' financial activity and compliance
    with laws and regulations are not in place.

    Fund Balance with Treasury - The reconciliation of Corporation records to those maintained by the
    U.S. Department of the Treasury is not performed in an effective manner.

    Net Position - Adequate procedures for ensuring unexpended appropriations (both obligated and
    unobligated) are accurately accounted for, and reviewing the propriety of changes in the components of
    net position are not in place. In addition, controls have not been established to ensure compliance with
    National Community Service Act appropriation laws.
We also identified the following reportable conditions, which we do not consider to be material weaknesses:

   National Service Trust - Procedures to obtain and reconcile membership roster information prepared by
   program sites to corresponding information on file at the Corporation are ineffective. This information is
   necessary to validate the accuracy and completeness of the data supporting the calculation of the service
   award liability.

    Financial Systems - The Corporation's new financial accounting system lacks effective report
    generation capabilities to support its financial information needs or to facilitate the preparation of annual
    financial statements.

Our tests of the Corporation's compliance with certain provisions of applicable laws and regulations
disclosed the following matters:

    Federal Financial Systems - During the first 10 months of fiscal year 1999, the Corporation utilized a
    financial management system that was in substantial noncompliance with the provisions of OMB
    Circular A-127, Federal Financial Systems.

    Availability of Funds - The Corporation is not in full compliance with appropriation laws related to the
    use of its National Community Service Act funds only during periods of availability.

The results of our audit, our consideration of internal control over financial reporting, and our tests of the
Corporation's compliance with certain provisions of applicable laws and regulations are presented in more
detail in the remainder of this report.


Report on the Financial Statements
We have audited the accompanying Statement of Financial Position of the Corporation for National and
Community Service as of September 30, 1999, and the related Statement of Operations and Changes in Net
Position and Statement of Cash Flows for the year then ended. These financial statements are the
responsibility of the Corporation's management. Our responsibility is to express an opinion on these
financial statements based on our audit.

Except as explained in the following paragraph, we conducted our audit in accordance with generally
accepted auditing standards and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards require that we
plan and perform the audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement presentation.
We believe that our audit provides a reasonable basis for our opinion on the Statement of Financial Position.
During 1999, the Corporation converted its general ledger to a new financial accounting system and made
adjustments to certain financial statement account balances that affected the amounts reported as of and for
the year ended September 30, 1999. Due to the complexity of the general ledger conversion process, and the
lack of an adequate audit trail to support certain adjustments, we were unable to satisfy ourselves as to the
propriety of $10.5 million reported as an increase in unexpended appropriations, for the year ended
September 30, 1999.

It was impracticable to extend our audit procedures sufficiently to determine the extent to which this matter
affected the fiscal year 1999 results of operations and cash flows, and accordingly the scope of our work was
not sufficient to enable us to express, and we do not express, an opinion on the Corporation's Statements of
Operations and Changes in Net Position and Cash Flows for the year ended September 30, 1999.

In our opinion, the Statement of Financial Position referred to above, presents fairly, in all material respects,
the financial position of the Corporation for National and Community Service at September 30, 1999, in
conformity with generally accepted accounting principles.


Report on Internal Control Over Financial Reporting

The management of the Corporation is responsible for establishing and maintaining internal control over
financial reporting. In fulfilling this responsibility, estimates and judgments by management are required to
assess the expected benefits and related costs of internal control policies and procedures. The objectives of
internal control over financial reporting are to provide management with reasonable, but not absolute,
assurance that:

    transactions are executed in accordance with laws governing the use of budget authority and with other
    laws and regulations and government-wide policies identified by the Office of Management and Budget
    (OMB) as applicable to the Corporation, that could have a direct and material effect on the financial
    statements;

    assets are safeguarded against loss from unauthorized acquisition, use, or disposition; and

    transactions are properly recorded, processed, and summarized to permit the preparation of financial
    statements in accordance with generally accepted accounting principles.
Because of inherent limitations in internal control, misstatements, losses, or noncompliance may nevertheless
occur and not be detected. Also, projection of an evaluation of internal control to future periods is subject to
the risk that procedures may become inadequate because of changes in conditions or that the effectiveness of
the design and operation of policies and procedures may deteriorate.

In planning and performing our audit, we considered the Corporation's internal control over financial
reporting by obtaining an understanding of the Corporation's internal controls, determined whether these
internal controls have been placed in operation, assessed control risk, and performed tests of controls in order
to determine our auditing procedures for the purpose of expressing our opinion on the Statement of Financial
Position, and not to provide assurance on internal control over financial reporting. We limited our internal
control testing to those controls necessary to achieve the objectives described above. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers' Financial
Integrity Act of 1982, such as those controls relevant to ensuring efficient operations. The objective of our
audit was not to provide assurance on internal controls. Consequently, we do not provide an opinion on
internal controls.
Our consideration of internal control over financial reporting would not necessarily disclose all matters in the
internal control over financial reporting that might be reportable conditions and, accordingly, would not
necessarily disclose all reportable conditions that are material weaknesses. Reportable conditions are matters
coming to our attention that represent significant deficiencies in the design or operation of internal control
that could adversely affect the Corporation's ability to record, process, summarize, and report financial data
consistent with the assertions of management in the financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level the risk that misstatements, in amounts that
would be material in relation to the financial statements, may occur and not be detected within a timely
period by employees in the normal course of performing their assigned functions. We noted certain matters,
described below, involving internal control over financial reporting that we consider to be reportable
conditions under standards established by the American Institute of Certified Public Accountants.

We believe the reportable conditions identified as items A through E below are material weaknesses. These
conditions were first identified and previously reported as material weaknesses in OIG Audit Report 96-38,
Report on the Results of the Auditability Study, issued in March 1996, and other OIG reports. Items F and G,
National Service Trust and financial systems, also previously reported as material weaknesses in the
aforementioned reports, are no longer considered material weaknesses, but remain reportable conditions. All
of these conditions were considered in determining the nature, timing, and extent of audit procedures to be
performed in our audit of the Corporation's 1999 Statement of Financial Position. A summary of the status of
material weaknesses and other reportable conditions included in our prior year Independent Auditors ' Report
on Internal Control Over Financial Reporting is included as Exhibit I.

A. Financial Management and Reporting

During the latter half of fiscal year 1999, the Corporation identified a candidate to fill the position of Chief
Financial Officer; however, this individual was not confirmed by Congress and did not assume official duties
until November 1999. As a result, fiscal year 1999 financial management leadership, and oversight of
accounting and financial reporting activities, remained the responsibility of the Chief Operating Officer who
was required to split her time between financial management and the operational demands requisite in
managing a growing national service program.

Additionally, limitations of the legacy financial system, Federal Success, in use by the Corporation for the
majority of fiscal year 1999 contributed significantly to the Corporation's inability to compile reliable and
meaningful financial reports for management information and annual financial reporting purposes. That
financial system did not provide the Corporation with an effective means for control of financial activity at
the detail fund level. To compensate for system inadequacies, numerous detail subsidiary ledgers were
maintained separate from the general ledger system, by accounting personnel and staff members in other
offices, to track information not readily available from the legacy financial system. Reconciliation of these
manual and personal computer based records to the general ledger was time consuming and subject to human
error.

The Corporation implemented a new financial accounting system, Momentum, in August 1999. This new
system is intended to address management information needs, and result in improved system integration,
enhanced data integrity checks, funds control, and expanded reporting functions. The conversion of financial
data from Federal Success to Momentum was a very arduous task, and was completed near the Corporation's
fiscal year end. There was no period of parallel operation, and due to complexities of Federal Success, which
made it incompatible with the architecture of ~ o m e n t u m ,most data was converted in summary form.
Although the detail was archived on a CD-Rom for reference purposes, preparing financial statements as of
and for the year ended September 30, 1999, using data from the two general ledger systems, was a challenge
for the Corporation.

Financial reporting issues identified during our audit included the following:

            The posting of prior year audit adjustments was delayed until the preparation of the fiscal year
            1999 post-closing trial balance, resulting in uncertainty as to which adjustments needed to be
            posted and to what general ledger account;
            Transactions posted to grant accounts were not effectively reviewed and adjusted, thus requiring
            additional significant adjustments to grant advances, payables, and expense for fiscal year 1999:
            A number of adjustments were identified and posted directly to net position accounts with no
            formal audit trail or supporting documentation to justify the decision to make these adjustments
            directly to net position;
            Certain journal vouchers were prepared and posted to the post-closing trial balance by an
            accounting manager without review and approval by supervisory personnel; and
            Unusual financial statement relationships, such as National Service Trust activity reported as
            impacting the increase in unexpended appropriations, were not identified and resolved on a
            timely basis.

Additionally, the Corporation's Accounting Department, which was reorganized during the year and again
subsequent to fiscal year end when the new CFO took office, includes a number of new personnel who did
not work with Federal Success when it was the Corporation's core general ledger system. For the most part,
these individuals, including the CFO, were responsible for preparing the year end financial statements.
Unfamiliarity with Federal Success, and lack of sufficient detail in Momentum, made preparation of the
financial statements extremely complicated.

Moreover, the fair presentation of financial statements in accordance with generally accepted accounting
principles includes not only the reporting of materially correct account balances, but also the presentation of
those balances in a reasonably classified and summarized (neither too detailed or too condensed) manner, so
that the financial statements are informative of matters that may affect their use, understanding, and
interpretation. The Corporation's financial statements do not currently provide information related to its
many service programs, the administrative costs of those programs, or the separate operations of the National
Service Trust.

To improve its financial management and reporting processes, we recommend the Corporation:

1. Continue to investigate, identify, and resolve the reporting errors affecting unexpended appropriations
   and the cash flow statement;

2. Require the completion of a financial disclosure checklist and the documentation of senior management's
   review and approval of the financial statements and related support;
   Provide personnel responsible for preparation and review of the financial statements adequate training on
   current accounting and reporting requirements as they apply to government corporations;

   Establish formal procedures for the monthly review of general ledger accounts, tnal balances, adjusting
   journal vouchers, and account reconciliations and other supporting documentation by the Director of
   Accounting or other supervisory personnel;

   Enhance the overall presentation of the financial statements, and their usefulness to the reader. by
   reporting costs, including an allocation of those costs related to administration, for each Corporation
   service program and separately report the operations of the National Service Trust.

   General Control Environment

The general control environment sets the tone of an organization and thereby influences the level of control
consciousness and provides the discipline and structure of an organization. Control environment factors
include commitment to competence, management philosophy and operating style, organizational structure,
and assignment of authority and responsibility. During fiscal year 1999, the Corporation operated with less
than optimal personnel resources that contributed to the weaknesses noted in the Corporation's general
control environment.

The Corporation has begun to take a more proactive approach to ensuring that an effective system of internal
control is in place, primarily through progress made in implementing its Action Plan for financial
management improvements, initially submitted to Congress in December 1998, and reported upon bimonthly
as required by the House of Representatives Conference Committee Report accompanying PL 105-276.
Additionally, the Corporation has taken steps to survey key members of Corporation management to obtain
relevant information to prepare the annual statement on internal accounting and administrative control
systems.

However, the Corporation continues to rely heavily on issues being brought to its attention through audits
conducted by the Office of the Inspector General (OIG) and independent auditors. Corporation management
is responsible for establishing and maintaining an effective system of internal controls. Reliance on the work
of the OIG and independent auditors to identify and report internal control risks for management's attention
does not prevent or routinely detect matters during the year which could result in material misstatements of
accounting and budgetary reports or instances of material noncompliance with laws and regulations. It also
leaves the Corporation vulnerable to the risks of fraud or other irregularities (either intentional or
unintentional) that may not be detected or corrected in a timely manner by Corporation employees in the
course of performing their assigned duties.

The following matters are the most significant factors in our conclusion regarding the presence of a
continuing materially weak general control environment:

1. Although the Corporation has recently promulgated some policies, the Corporation still lacks a
   comprehensive set of policies and procedures to provide the guidance Corporation personnel need for
   effective and efficient performance of their assigned duties in accordance with management directives
   and relevant industry standards, and in compliance with applicable laws and regulations.
   The Corporation's current plan for self-assessment of internal control, which relies primarily on internal
   surveys of designated assessable units on a staggered schedule, is not sufficiently comprehensive, and to
   date has not assessed information technology controls. It also does not include a process for independent
   validation of survey responses, or for formal monitoring of corrective action taken to improve any
   identified internal control weaknesses.

   The Corporation has developed an Action Plan, as mandated by Congress, to guide and track its efforts in
   improving its overall financial management. However, this plan continues to evolve and through
   October 8, 1999, the date of OIG Audit Report Number 00-13, Review of the Corporation for National
   and Community Service Action Plan, none of the major financial management reform goals had been
   completely achieved.

Additionally, the attention focused by the Corporation on implementing the new financial accounting system
within a limited timeframe, resulted in a shift of priorities away from strengthening supervisory review of
ongoing financial accounting activity.

We also concluded that the Corporation lacks an effective management control environment as evidenced by
the volume of material weaknesses and other reportable conditions identified herein, and in other reports
issued by its OIG. Many of the matters presented in this report, and the related recommendations, have been
made in prior reports, some of which date back several years. These matters continue to raise questions
about the reliability of the Corporation's general control environment.

To improve its general control environment, we recommend the Corporation:

    Complete the development of a comprehensive set of policies and procedures to guide Corporation
    personnel in the performance of their assigned duties.

    Dedicate the resources necessary to design and implement a more comprehensive plan for self-
    assessment of management internal accounting and administrative controls. All assessable units need to
    be initially surveyed, grants management needs to be surveyed annually, and information technology
    controls need to be included in the self-assessment survey. Validation of survey responses and
    monitoring of corrective action taken to improve internal control weaknesses should be independently
    performed.

    Reemphasize the importance of supervisory review of transactions, prior to their posting to the new
    financial accounting system.

    As discussed in more detail in OIG Audit Report 00-13, critically evaluate its Action Plan to ensure goals
    and tasks are appropriately defined and prioritized, timelines are realistic, and appropriate criteria are in
    place to measure results and completion of tasks.

    Grants Management

The Corporation awards National and Community Service Act (NCSA) and Domestic Volunteer Service Act
(DVSA) grants to state and local governments, institutions of higher education, and other not-for-profit
organizations. The Corporation spends most of its funds on grants. Therefore, grant activities result in the
most significant components of the Corporation's financial statements. Grantees are required, among other
things, to expend funds for allowable costs and provide periodic reports to the Corporation to demonstrate
programmatic and financial compliance with the terms of the respective grant agreements.

The majority of grant funds must be spent to support program members recruited to provide a variety of
community service activities. Because the success of member recruitment by grantees varies in terms of
numbers and timing, it is difficult for the Corporation to estimate expenses incurred by grantees. Therefore,
it is critical that grantees' financial activity is monitored closely and required reporting deadlines enforced so
that related financial statement amounts (grant advances, grants payable, and grant obligations and expenses)
are fairly stated.

Monitoring of grantee financial activity is hampered by the limitations of the current financial system used to
track grant awards. Momentum lacks a grants module, and the grants management system currently in use is
not integrated with the new general ledger system. The current grants management system does not include
sufficient flexibility to produce reports which would be useful in monitoring grantee performance, including
reports of grantees with past due reports and impending grant expiration dates, so that appropriate action
could be taken by program managers to contact grantees or close out grants on a timely basis.

Further, the Corporation is expanding the use of its Web-Based Reporting System in fiscal year 2000.
Controls over the input of enrollment and end-of-term forms are critical to ensure the integrity of the
National Service Trust database, and therefore should be reviewed as part of the Corporation's grantee
monitoring procedures.

Equally important, the Corporation is also responsible for ensuring that grantees comply with applicable laws
and regulations related to the administration of the respective grant awards, including those related to federal
cash management requirements. One method for accomplishing this is to rely on financial and compliance
audits of grantees performed under the Single Audit Act. Another is to establish an internal program of
grantee oversight, including risk-based site visits to review grantee financial management and programmatic
compliance. Because the Single Audit Act leaves the identification of major programs which are subject to
compliance testing to the judgment of the grantees' independent auditors, there can be no assurance that the
Corporation's programs will be selected for review. Further, many of the Corporation's DVSA grants fall
below the $300,000 threshold that triggers the Single Audit Act requirement. Therefore, a combination of
an internal grantee monitoring program and review of Single Audit reports is required to ensure effective
grantee oversight is maintained.

However, our audit procedures revealed that a routine methodology for obtaining and reviewing grantees'
Single Audit reports, where required, and resolving noted instances of noncompliance, has not been
implemented as of September 30, 1999. Likewise, a comprehensive, risk-based internal grants management
program for performing grantee site visits to ensure financial and programmatic compliance is not in place.
Considering the size of grants awarded to state commissions and certain not-for-profit organizations,
establishing a comprehensive program for oversight of grantees, including procedures to ensure grantees are
effectively monitoring their subgrantees, should be a high priority for the Corporation.

We recommend the Corporation take the following actions to improve its grants management process:
   Continue to emphasize the importance of timely receipt and accurate processing of grantee financial
   reports to all service center and headquarters grants management and accounting personnel.

   Develop appropriate actions to penalize grantees that consistently miss reporting deadlines, and notify all
   grantees of enforcement actions to be taken. Follow through to demonstrate commitment to attaining
   improved reporting compliance.

   Implement procedures to obtain and review grantee Single Audit reports, where required, and resolve
   identified instances of noncompliance.

   Establish a comprehensive program to monitor the programmatic and financial activity of all grantees to
   ensure adequate attention is given to compliance issues which may not be addressed even if a Single
   Audit has been performed for any specific grantee. Corporation monitoring activities should include site
   visits performed on a periodic basis, the frequency of which would depend on the level of risk assessed
   by the program managers, to ascertain whether Corporation administrative and programmatic guidance
   provided to the grantees, including the requirement for monitoring of subgrantees, has been effectively
   implemented.

   Incorporate procedures during site visits to ascertain that adequate controls over input of enrollment and
   end-of-term forms via WBRS have been established by grantees.

   Identify and implement an improved grants management system that could interface with or provide
   compatible data input for the new financial accounting system, and which could be used to produce
   grantee monitoring reports, such as listings (by service center) of those grantees with past due financial
   status reports and impending grant expiration dates, so that appropriate and timely action could be taken
   by the Corporation's program managers.

   Fund Balance with Treasury

Fund Balance with Treasury is the aggregate amount of funds in the Corporation's accounts with the U.S.
Department of the Treasury from which it is authorized to make expenditures and pay liabilities. The
controls over capturing and reconciling the appropriate information for inclusion in the financial statements
are essential to ensure that the related balances are complete and accurate.

The Corporation is not performing effective Fund Balance with Treasury reconciliation procedures at the
appropriation level on a monthly basis. Significant differences continue to exist, at the appropriation level,
between the Corporation's records and those maintained by the Treasury. Additionally, although the year
end procedures materially reconciled the total balance to Treasury records, an aggregate unreconciled
difference of approximately $3.4 million existed between the Corporation's general ledger balances and
those reported by Treasury at September 30, 1999. Further, the current procedures are not effective for
detecting the inappropriate use of Trust or gift funds for other than their intended purpose.

We recommend the Corporation improve its monthly Fund Balance with Treasury reconciliation procedures
as follows:
1. Perform reconciliations at the appropriation level to help isolate variances to a few specific accounts. All
   reconciling differences, as identified on the TFS 6652, Statement of Differences, and on the
   Corporation's cash comparison sheet at the appropriation level, should be promptly investigated and
   resolved.

2. Document and submit the reconciliations to the Director of Accounting or other senior management for
   review and approval no later than 30 days after each month end.

E. Net Position

The results of the Corporation's operations are reported in the various components of its net position as of
each fiscal year end. Because the Corporation receives significant annual appropriations from Congress, the
status of unexpended appropriations, as well as the cumulative results of operations related to the National
Service Trust, are important disclosures for the users of the financial statements. Our audit revealed the
following matters affecting the reported component balances of net position that required management
attention.

    Tests of a sample of obligated balances at year end revealed that these amounts are not always
    deobligated on a timely basis.

    A number of adjustments, totaling approximately $7.5 million, had initially been posted directly to net
    position instead of initiating a prior period adjustment or posting the "clean-up" activity to the
    appropriate operating expense account.

    Once appropriations have been obligated as a result of NCSA grant awards, the Corporation considers
    the funds available for allowable grant costs until expended. If unexpended grant funds remain unspent
    at the end of any funding period, carryovers are computed and subsequent funding period costs are
    charged first to the carryover balances, followed by charges to any new grant award funds. Based on
    consultation with legal counsel at the General Accounting Office, in some instances, depending on the
    wording in the specific grant agreements, this practice is in violation of restrictions on the period of
    availability of appropriations made to the Corporation in its appropriation laws.

    The initial roll-forward of unexpended appropriations included a line item related to the National Service
    Trust activity, in error. Management was unable to determine the actual nature of this change.

We concluded that the Corporation does not have adequate procedures in place to ensure the accuracy of
components of net position; nor does it have controls in place to ensure timely deobligation of previously
obligated items, or to routinely analyze the entries recorded in the components of net position for propriety.
Additionally, controls are not in place to ensure compliance with appropriation laws. As a result, the risk of
material misstatements reported in the financial statements is increased, and inappropriate management
decisions which rely on reported balances of available appropriations could occur.

We recommend the following with respect to accounting for activity reported in net position:

1. Establish a routine procedure to ensure obligations are properly deobligated when final payments are
   made and grant award periods expire.
2. Perform a quarterly analysis of changes in net position balances to detect unusual activity and make
   appropriate corrections.

3. Refine grant agreement wording for NCSA grant awards to clearly indicate the period of time the funds
   are available to absorb grant expenses. Restrict the use of carryover funds in a manner that does not
   conflict with the corresponding period of availability of the appropriation under which the award was
   made.

F. National Service Trust

The National Service Trust receives appropriated funds restricted for education and similar awards made
under the National and Community Service Act of 1990, as amended. For financial reporting, the
Corporation records a service award liability that represents education awards earned by AmeriCorps
program members for performing authorized community service activities. The recorded liability for these
service awards is based on actual awards earned by participants who have completed service and estimated
amounts for participants currently enrolled in the program. The Corporation uses the Trust Fund database to
capture the data required to estimate this liability. The integrity of this database and the data capturing
processes, as well as the controls over these processes (including those related to the internet-based system),
are essential elements to ensure that the service award liability is based on accurate and complete
information.

The membership roster confirmation process, a key control in ensuring the completeness and accuracy of the
database, is currently ineffective as evidenced by reconciling differences between roster information
prepared at the program sites and corresponding information on file at the Corporation used to calculate the
service award liability. This weakness increases the risk of errors and irregularities, including fraud, which
could result in the calculation of a materially incorrect service award liability and in educational awards
being paid to members who have not successfully completed program requirements.

We recognize that the Corporation has implemented a Web-Based Reporting System (WBRS) for enrollment
and end-of-term activity reporting of AmeriCorps members which will reduce the need for reliance upon the
membership roster confirmation process in the future. However, the use of WBRS did not become
widespread until fiscal year 2000, and not all program sites are using WBRS. Consequently, membership
roster confirmations will continue to play an important part in ensuring the service award liability is
computed accurately for financial reporting purposes.

To improve the accuracy and reliability of the reported service award liability, we recommend the
Corporation continue to emphasize the importance of the quarterly membership roster confirmation process
by enforcing the requirement for all sites not using WBRS to return, within a reasonably established
timeframe, either the corrected roster or a certification that the rosters are correct and complete and that no
changes are necessary.

G. Financial Systems

The Corporation's new financial management system, Momentum, was brought on-line near the end of fiscal
year 1999. It accepted its first live transaction postings in mid-September, 1999. Since that time,
Corporation personnel have begun to assess the quality of information produced by the system and its ability
to provide meaningful information to assist the Corporation in managing its financial operations.

The first test of Momentum's capabilities came from the annual financial statement preparation process, in
anticipation of the fiscal year 1999 audit. As a part of the audit process, we determined that the system does
have the ability to produce trial balances on a fund basis, but that the accounts used for each fund are strictly
governmental in nature and do not take into consideration the unique characteristics of revolving or trust
fund operations. As a result, manual adjusting entries needed to be posted to the National Service Trust
accounts to make them consistent with the external financial reporting presentation.

Additionally, the Corporation was unable to prepare an accurate cash flow statement or a roll-fonvard of the
change in unexpended appropriations from information produced by Momentum as of and for the year ended
September 30, 1999. Although we believe the difficulty in preparing these statements can be traced to
problems encountered in the conversion process from Federal Success, it is clear that data resident in
Momentum to support the opening balances for the fiscal year beginning October 1, 1999, is not entirely
reliable. These balances will enter materially into the results of operations and changes in net position for
the fiscal year ending September 30,2000.

Further the Corporation admits to problems encountered in obtaining mandatory reports from Momentum,
thus necessitating the purchase of a different reporting package. The ability of system users at all levels to
access and analyze financial information in a meaningful format is essential to achieving the ultimate goal of
improved financial management within the Corporation.

Finally, our review of system security revealed that logical access to information resident in Momentum
needs improvement. The most significant improvements needed relate to the incompatible duties of service
center directors who are able to create, approve, and process payments, as well as create vendor files.
Certain other Corporation personnel have both system manager and security officer access privileges.

To improve the control environment surrounding the new financial accounting system, we recommend the
Corporation:

    Adjust the opening balances in Momentum to the correct amounts once the matters creating the reporting
    problems have been identified and resolved, as recommended in item A above.

    Investigate the possibilities for making programming changes to tailor the accounts used and the flow of
    transactions for the National Service Trust and Gift Fund to more closely mirror the substance of the
    activity maintained in these accounts.

    Conduct a "hard close" test of Momentum's capabilities to produce accurate and complete financial
    information for annual financial reporting purposes as of an interim date, and take appropriate action to
    resolve any unusual problems encountered.

     Work collaboratively with system users to resolve identified difficulties in obtaining meaningful and
     timely information to assist in analyzing account transactions and managing financial operations.
5 . Survey system users to determine the nature of any other problems encountered in using Momentum, and
    consider providing additional focused training on the new reporting package and other capabilities of
    Momentum.

6. Take appropriate action to mitigate the segregation of duties concerns raised in the system security
   review.


Report on Compliance with Laws and Regulations

The management of the Corporation is responsible for complying with laws and regulations applicable to the
entity. As part of obtaining reasonable assurance about whether the Corporation's financial statements were
free of material misstatement, we performed tests of the Corporation's compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the determination
of financial statement amounts, and certain other laws and regulations. We limited our tests of compliance to
these provisions and we did not test compliance with all laws and regulations applicable to the Corporation.
However, providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit. Accordingly, we do not express such an opinion.

The results of our tests of compliance with the laws and regulations described in the preceding paragraph,
disclosed instances of noncompliance with the following laws and regulations that are required to be reported
under Government Auditing Standards.

    During the first 10 months of fiscal year 1999, the Corporation utilized a financial management system
    that was in substantial noncompliance with the provisions of OMB Circular A-127, Federal Financial
    Systems. This system was replaced by a new general ledger system in August 1999 which meets the
    requirements of OMB Circular A-127.

    The Corporation is not in full compliance with appropriation laws related to the use of National and
    Community Service Act (NCSA) funds only during periods of availability. As discussed in our Report
    on Internal Control Over Financial Reporting, the Corporation considers NCSA appropriated funds
    available for allowable grant costs until expended. If unexpended grant funds remain unspent at the end
    of any funding period, canyovers are computed and subsequent funding period costs are charged first to
    the carryover balances, followed by charges to any new grant award funds. Annual appropriation laws
    related to NCSA grants limit the availability of funds to annual and two-year periods.

The results of our tests of compliance with the laws and regulations, as described above, disclosed no other
instances of noncompliance that are required to be reported herein under Government Auditing Standards.
The status of prior year reportable instances of noncompliance with laws and regulations is presented as
Exhibit 11.

We also noted other matters involving internal control over financial reporting and compliance with laws and
regulations that we do not consider to be reportable conditions or reportable instances of noncompliance, that
we will report separately (OIG Audit Report 00-38).
We provided a draft of this report to the Corporation. The Corporation's response to our report, including
our findings and recommendations, is included as Appendix A. We acknowledge the Corporation's
difference of opinion as to the reported results of our audit procedures, but continue to believe that the results
of those audit procedures support our report. However, in its response to our report, the Corporation makes
certain statements which we believe deserve further comment:

1. The Corporation states "...the standard being applied to the Corporation appears to be exceptionally
   high. For example, the General Accounting Office (GAO), which audits the Federal Government's
   financial statements, sets planning materiality at 3 percent of the base." The Corporation uses this
   reference to GAO audit guidance contained in its Financial Audit Manual (which is not an audit
   standard) to support its contention that the $10.5 unidentified change in unexpended appropriations is not
   material enough to result in a disclaimer of opinion on its statements of operations and changes in net
   position and cash flows. However, the Corporation's response did not reference GAO's complete
   guidance regarding materiality, which indicates that test materiality, used by auditors in testing a specific
   line item or account, should be one-third of planning materiality. As noted by the Corporation, the
   $10.5 unidentified amount clearly exceeds the lower one percent of the base. Additionally, GAO
   guidance specifically indicates that, based on auditor judgment, test materiality may be set lower than
   one-third of planning materiality "...when the auditor expects to find a significant amount of
   misstatements." Although we were not engaged to perform the Corporation's audit in accordance with
   the GAO Financial Audit Manual, our prior year audit experience with the Corporation, would support
   the use of a lower threshold of materiality for the fiscal year 1999 audit.

    In discussing the $10.5 unidentified amount further, the Corporation indicates ". . .we have a bookkeeping
    error. This is the same problem reported in 1998. During fiscal year 1999 the Corporation reviewed
    fiscal year 1998 activity in an attempt to identify the cause of the difference. We also anticipated that the
    precise activity giving rise to this condition would be identified by KPMG during its detailed testing of
    transactions during the fiscal year 1999 audit." The purpose of our audit was obtain sufficient evidence
    to express an opinion on the Corporation's 1999 financial statements. It was not designed to identify
    precise activity giving rise to any condition and, therefore, the Corporation should not have anticipated
    such results from the audit. Additionally, we have no basis for assuming that the problem noted in fiscal
    year 1999 is the same problem reported in fiscal year 1998. However, we agree with the Corporation
    that the problem is likely the result of one or more bookkeeping errors which can not be specifically
    identified due to difficulties encountered in the conversion process from its legacy financial accounting
    system to a new general ledger system.

As required by the Government Corporation Control Act, this report is intended solely for the information
and use of the United States Congress, the President, the Director of the Office of Management and Budget,
the Comptroller General of the United States, and the Corporation for National and Community Service and
its Inspector General, and is not intended to be and should not be used by anyone other than these specified
parties.




March 3,2000
                                                                                         Exhibit I

                         Corporation for National and Community Service
                          Status of Prior Year Internal Control Findings



    FY98 Finding                                   Type              P/99 Status
    Financial Management and Reporting        -    1998 - Material   A Chief Financial Officer assumed duties
    The Corporation does not have a Chief          Weakness          in November 1999. However, financial
    Financial Officer or other strong financial                      management problems continue to exist
    management in place to provide the             1999 - Material   that have prevented the achievement of an
    leadership and oversight necessary for         Weakness          effective system of quality control over
    effective quality control of accounting and                      accounting and financial reporting
    financial reporting activities.                                  activities. This finding has been revised to
                                                                     reflect fiscal year 1999 operations and
                                                                     repeated as a continuing material weakness
                                                                     for 1999.
    General Control Environment - The              1998 - Material   General control environment weaknesses
    Corporation's general control environment      Weakness          continued during 1999, due primarily to a
    is weak and is not conducive to ensuring                         lack of comprehensive policies and
    that an effective system of internal control   1999 - Material   procedures to guide Corporation personnel
    is maintained to safeguard assets, produce     Weakness          in the performance of their financial
    reliable financial reports, and comply with                      management activities. Additionally, the
    applicable laws and regulations.                                 Corporation's self-assessment process to
                                                                     ensure the effectiveness of its internal
                                                                     control systems needs to be enhanced. This
                                                                     finding has been revised to reflect fiscal
                                                                     year 1999 operations and repeated as a
                                                                     continuing material weakness for 1999.
    Grants      Management       -    Adequate     1998 - Material   A reasonable method for estimating grant
I   procedures for monitoring grantees'
                                  -    -
                                                   Weakness          expenses and related accruals has been
    financial activity and compliance with laws                      established; however, oversight of grantee
    and regulations are not in place.        In    1999 - Material   financial activity and compliance with laws
    addition, a reliable method for estimating     Weakness           and regulations has not significantly
    expenses incurred by grantees, and related                        improved. This finding has been revised to
    amounts advanced or payable to grantees,                         reflect fiscal year 1999 operations and
    has not been established.                                        repeated as a continuing material weakness
                                                                      for 1999.
    Financial Systems - The Corporation's 1998 - Material             The Corporation implemented a new
    general ledger system is not adequate tc Weakness                 financial accounting system in 1999. Use
    support its financial information needs,                          of the old system during a significanl
    including funds control, or to facilitate the 1999 -              portion of 1999 is included as a componeni
    preparation of annual financial statements.   Reportable          of the 1999 material weakness related tc
                                                  Condition           financial management and reporting notec
                                                                      above. A finding related to the use of the
                                                                      new system is included as a separatr
                                                                      reportable condition for 1999.
                                                                                     Exhibit I

                     Corporation for National and Community Service
                      Status of Prior Year Internal Control Findings



FY98 Finding                                   Type              F Y99 Status
National Service Trust - Procedures to         1998 - Material   The Corporation has implemented a new
obtain and reconcile membership roster         Weakness          Web-Based        Reporting   System     for
information prepared by program sites to                         submitting Member enrollment and end-of-
corresponding information on file at the       1999 -            term activity. The use of WBRS will
Corporation are ineffective.        This       Reportable        significantly reduce the need for
information is necessary to validate the       Condition         membership roster confirmations in the
accuracy and completeness of the data                            future. This finding has been revised to
supporting the calculation of the service                        reflect fiscal year 1999 operations and has
award liability.                                                 been reduced to a reportable condition for
                                                                 1999.
Fund Balance with Treasury - The               1998 - Material   Significant differences continue to exist
reconciliation of Corporation records to       Weakness          between the Corporation's records and
those maintained by the U.S. Department of                       those maintained by the U.S. Department
the Treasury is not performed in an            1999 - Material   of the Treasury. This finding has been
effective manner and does not adequately       Weakness          revised to reflect fiscal year 1999
support the separate balances related to                         operations and repeated as a continuing
Appropriations, Gift, and Trust accounts.                        material weakness for 1999.

Net Position - Adequate procedures for         1998 - Material   Effective procedures to monitor activity in
ensuring accurate and timely deobligation      Weakness          net position accounts and to take timely
of expired grant awards and other                                action to resolve unusual or incorrect
obligations are not in place, and changes in   1999 - Material   transactions posted to these accounts have
the components of net position are not         Weakness          not been established. This finding has been
reviewed for propriety on a timely basis. In                     revised to reflect fiscal year 1999
addition, controls have not been established                     operations and repeated as a continuing
to ensure compliance with appropriation                          material weakness for 1999.
laws.
Revenue from Reimbursable Agreements -         1998 - Material   The Corporation has taken action to correct
Procedures are not in place to ensure          Weakness          this finding; thus, it is considered closed.
revenue related to offsetting collections
from reimbursable agreements is fairly         1999 - Closed
stated and properly recorded in the general
ledger accounts.
Payment of Member Allowances -                                   Verification    procedures     related   to
Procedures established to verify that          Reportable        AmeriCorps*VISTA and *NCCC members
AmeriCorps*VISTA and *NCCC members             Condition         have significantly improved, but require
are accurately paid are not functioning                          additional attention. This finding has been
effectively.                                   1999 - Other      revised and will be included as a comment
                                               Comment           in a separate OIG Audit Report (00-38.).
                                                                                      Exhibit I1

                     Corporation for National and Community Service
              Status of Prior Year Noncompliance with Laws and Regulations



W 9 8 Finding                                   FY99 Status
Federal Managers ' Financial Integrity Act      The Corporation has a process in place to
- The Corporation is not compliant with the     prepare the annual FMFIA statement.
xovisions of the Government Corporation         However, additional measures should be
2ontrol Act, which require it to make an        taken to make the process more
innual assessment and report on the             comprehensive. This finding has been
:ffectiveness of its internal control, in a     closed as an instance of reportable
manner consistent with the requirements of      noncompliance with laws and regulations.
:he Federal Managers' Financial Integrity
Act of 1982 (FMFIA).
Federal Financial Systems - The                 Noncompliance with OMB Circular A- 127
Corporation is in substantial noncompliance     requirements continued for the first 10
with the provisions of OMB Circular A-          months of fiscal year 1999, until a new
127, Federal Financial Systems, which           financial    accounting     system     was
requires Federal entities to establish and      implemented. Due to the significance of
maintain a single, integrated financial         the time noncompliance continued, this
management system to process and record         finding has been repeated as an instance of
financial events effectively and efficiently,   reportable noncompliance for 1999.
and to provide complete, timely, reliable
and consistent information for decision
makers and the public.
Availability of Funds - Compliance related      The Corporation is not in full compliance
to the use of funds only during periods of      with appropriation laws related to the use
availability is uncertain due to apparent       of its National Community Service Act
conflicts between the Corporation's             funds only during periods of availability.
enabling legislation and subsequent             This finding has been repeated as an
appropriation laws.                             instance of reportable noncompliance with
                                                laws and regulations for 1999.
                Corporation for National and Community Service
                        Statement of Financial Position
                           As of September 30,1999
                             (Dollars in Thousands)


ASSETS
   Fund Balance with Treasury (Note 2)
   Trust Investments and Interest Receivable, Net (Note 3)
   Advances to Others
   Accounts Receivable, Net (Note 4)
   Property and Equipment, Net (Note 5)
                  Total Assets



LIABILITIES
   Trust Service Award Liability (Note 6)
    Grants Payable
    Accounts Payable
    Actuarial FECA Liability (Note 9)
    Other Liabilities
    Accrued Annual Leave
    Commission Post-Service Benefits Liability (Note 7)
    Advances from Others
    Capital Lease Liability (Note 8)
                     Total Liabilities


NET POSITION (Note 10)
   Unexpended Appropriations
        Obligated
        Unobligated
   Cumulative Results of Operations
                 Total Net Position

     Commitments and Contingencies (Notes 8 and 15)

                     Total Liabilities and Net Position




       The accompanying notes are an integral part of these financial statements.
             Corporation for National and Community Service
            Statement of Operations and Changes in Net Position
                  For the Year Ended September 30,1999
                           (Dollars in Thousands)


REVENUES
   Appropriated Capital Used, excluding Trust Fund
   Appropriations Received by Trust Fund
   Interest
   Revenue from Services Provided
   Other
          Total Revenues



EXPENSES
   Grants (Note 11)
   Program and Administrative (Note 12)
   National Service Award (Note 13)
         Total Expenses

EXCESS OF REVENUES OVER EXPENSES



NET POSTION
   Net Position, Beginning Balance
   Excess of Revenues over Expenses
   Increase in Unexpended Appropriations, Net (Note 14)                   8 1,763
   Net Position, Ending Balance                                         $944,927




    The accompanying notes are an integral part of these financial statements.
                               Corporation for National and Community Service
                                           Statement of Cash Flows
                                   For the Year Ended September 30,1999
                                            (Dollars in Thousands)



CASH FLOWS FROM OPERATING ACTIVITIES

Excess of Revenues over Expenses

Adjustments Affecting Cash Flow:
    Appropriated Capital Used
    Appropriations Received by Trust Fund
    Increase in Accounts Receivable
    Increase in Interest Receivable
    Decrease in Prepayments
    Increase in Advances



    Increase in Accounts Payable and Other Liabilities
    Increase in FECA and Annual Leave Liabilities
    Decrease in Commission Liability
    Increase in Capital Lease Liability
    Increase in Trust Liability
    Decrease in Grants Payable



     Amortization of Premium/Discount
     Depreciation and Amortization
     Bad Debt Expense
     Other Adjustments


Total Adjustments

Net Cash Used by Operating Activities


                                                                                (continued)
                               Corporation for National and Community Service
                                           Statement of Cash Flows
                                   For the Year Ended September 30,1999
                                            (Dollars in Thousands)
                                                     (continued)



CASH FLOWS FROM INVESTING ACTIVITIES

Purchase of Property, Plant and Equipment
Sales of Securities
Purchase of Securities
Net Cash Used by Investing Activities

CASH FLOWS FROM FINANCING ACTIVITIES

Appropriations Received
Canceled Appropriations
Net Cash Provided by Financing Activities

Net Cash Provided by Operating, Investing and Financing Activities

Fund Balance with Treasury, Beginning

Fund Balance with Treasury, Ending



Supplemental Disclosure of Cash Flow Information

     Interest Paid

Supplemental Schedule of Financing and Investing Activity

     Property and Equipment Acquired under Capital Lease Obligations




                      The accompanying notes are an integral part of these financial statements.
